PROOF OF SERVICE
I, ROLBERTO MARTINEZ,

do swear or declare that on the date noted below, as

required by Supreme Court Rule 29, I have served the enclosed Petition for a.
Writ

of

Certiorari

and

accompanying Motion

for

Leave to Proceed In Forma

Pauperis on each party to the above proceeding or that party's counsel, and on
every other person required to be served, by depositing an envelope containing
the above documents first-class postage prepaid with the proper personnel of
the Federal Bureau of Prisons for placement in the U.S. Mail.

The names and

addresses of those served are Solicitor General of the United States, Room 56lh,
Department of Justice, 950 Pennsylvania. Ave. NW, Washington, D.C. 20530-0001.

I declare under penalty of perjury that the foregoing is true and correct=
Executed on

(l

ntrw

2021.

NolSerto Martinez

-8-

